PITTMAN HOWDESHELL, PLLC

ATTORNEYS AT LAW
MILBRANCH OFFICE PARK

140 MAYFAIR ROAD, SUITE 400
HATTIESBURG. MISSISSIPPI 39402

CHRISTOPHER M. HOWDESHELL HOMER W. PITTMAN (1903-1971)
°K H. PITTMAN - OF COUNSEL

REPLY TO: December 30, 2019 rac cou

POST OFFICE, DRAWER 17138 Telephone: 601.264.3314

HATTIESBURG, MS 39404-7138, Facsimile: 601.261.3411

VIA ELECTRONIC FILING AND FEDERAL EXPRESS
Clerk, Supreme Court of the United States

1 First Street, Northeast

Washington, D.C. 20543

RE: Bay Point Properties, Incorporated, Petitioner v.
Mississippi Transportation Commission, et al
United States Supreme Court
Case No. 19-798
(On Petition for Writ of Certiorari to the United States Court of Appeals for
the Fifth Circuit)

Dear Sir or Madam:

Our firm represents the Respondents in the above-referenced matter, and | am
counsel of record. Pursuant to Rule 30.4, please accept this correspondence as our request to
extend the time for Respondents to file its Brief in Opposition to Petitioner's Writ of
Certiorari in the above-referenced matter. In support of this request, the undersigned
Counsel would submit that additional time is required due to the holidays, as well as
obligations in other matters.

Specifically, Counsel is representing Appellee, Concerned Citizens of Forrest County
Areas 4, 5, & 6, LLC in the Mississippi Supreme Court, Case No. 20190AN-00639-SCT, and
Appellee’s Brief is currently due February 7, 2020. Counsel is also representing Appellant,
Pendorff Community Association, LLC in the Mississippi Supreme Court, Case No. 2018-AN-
01744-SCT, and Appellant’s Reply Brief is currently due February 3, 2020. Further, Counsel
is representing Respondents in the Mississippi Supreme Court in Case No. 2019-0862, and
Appellee’s Brief is currently due February 20, 2020. Counsel also has other active litigation
files, and, therefore, it is necessary to request an extension of time to file its Brief in
Opposition to Petitioner's Petition for Writ of Certiorari.

Petitioner filed its Petition for Writ of Certiorari on December 20, 2019, and the case
was placed on the docket on December 23, 2019. The Brief in Opposition is currently due on
January 20, 2020. Respondents would respectfully request an additional thirty (30) days to
file the Brief in Opposition, or until February 20, 2020. Petitioner's Counsel has indicated
no objection to the extension by email dated December 19, 2019. If this extension is not
acceptable, any extension of time would be appreciated. The purpose of this request is not
for delay, and good cause exists for this request as stated above.
Clerk, Supreme Court of the United States
1 First Street, Northeast

Washington, D.C. 20543

Page Two

Respectfully submitted, this the 30‘ day of December, 2019.
PITTMAN HOWDESHELL, PLLC

/s/Christopher M. Howdeshell
Counsel for Respondents

ce: J. David Breemer, Esq.
Daniel B. Smith, Esq.
Wilson D. Minor, Esq.

CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rule 29, I hereby certify that I have filed the above
correspondence with the electronic filing system and that a copy of the above and foregoing
correspondence requesting an extension of time to file Brief in Opposition was served on the
20 day of December, 2019, via first class mail, postage prepaid, and email upon the party
required to be served, as follows:

J. David Breemer, Esq.
Counsel for Petitioner
Pacific Legal Foundation

930 G Street
Sacramento, CA 95814

jbreemer@pacificlegal.org

THIS, the 30 day of December, 2019.

/s/Christopher M. Howdeshell
